Alan Silber
Partner
asilber@pashmanstein.com
Direct: 201.639.2014

February 3, 2021
VIA E-FILE
Clerk of the Supreme Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

City of Newark v. Fraternal Order of Police, Lodge 12
Docket No. 20-989
Blanket Consent to Amicus Curiae Filings

To the Clerk of the Supreme Court,
I am counsel of record for Petitioner City of Newark.
In accordance with Rule 37.2(a) of the Rules of the Supreme Court of the United
States, Petitioner grants blanket consent to the filing of amicus curiae briefs in
support of any party (or no party), both prior to the Court’s consideration of the
petition for writ of certiorari, and, if certiorari is granted, in the case before the Court
at oral argument.

Respectfully Submitted,
s/Alan Silber
Alan Silber, Esq.

AS/res
cc: Matthew D. Areman, Esq, Counsel for Respondent
(via e-filing, email, and First Class Mail)
Court Plaza South
21 Main Street, Suite 200
Hackensack, NJ 07601

Phone: 201.488.8200
Fax: 201.488.5556
www.pashmanstein.com

